No. 19-286
In the

Supreme Court of the United States
__________________
CRANSTON POLICE RETIREES ACTION COMMITTEE,
Petitioner,
v.
THE CITY OF CRANSTON,
__________________

Respondent.

On Petition for Writ of Certiorari to the
Rhode Island Supreme Court

__________________

BRIEF IN OPPOSITION
__________________
WILLIAM M. DOLAN III
WILLIAM K. WRAY, JR.
Counsel of Record
NICHOLAS L. NYBO
ADLER POLLOCK & SHEEHAN P.C.
One Citizens Plaza, 8th Floor
Providence, Rhode Island 02903-1345
(401) 274-7200
wdolan@apslaw.com
wwray@apslaw.com
nnybo@apslaw.com
Counsel for Respondent
November 4, 2019

i
QUESTIONS PRESENTED
1. Whether the Rhode Island Supreme Court erred in
affirming a trial court finding that the City of
Cranston met its burden under the established
Contract Clause framework when the City proved,
through credible evidence, that its ordinances
suspending a cost-of-living adjustment were
reasonable and necessary for a legitimate public
purpose.
2. Whether the city ordinances temporarily
suspending prospective cost-of-living increases in
retirement benefit contracts violated the Takings
Clause of the Fifth Amendment.

ii
TABLE OF CONTENTS
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . iii
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Procedure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Reasons why the Petition should be denied . . . . . . . 8
I. The Contracts Clause question should not be
reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
II. The Regulatory Takings question should not be
reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iii
TABLE OF AUTHORITIES
CASES
Baltimore Teachers Union, Am. Fed’n of Teachers
Local 340, AFL-CIO v. Mayor & City Council of
Baltimore, 6 F.3d 1012 (4th Cir. 1993), cert
denied, 510 U.S. 1141 (1994) . . . . . . . . . . . . . . . 10
Buffalo Teachers Fed’n. v. Tobe,
464 F.3d 362 (2d Cir. 2006), cert denied,
550 U.S. 918 (2007). . . . . . . . . . . . . . . . . . 5, 10, 15
In re Chateaugay Corp.,
53 F.3d 478 (2d Cir. 1995) . . . . . . . . . . . . . . . . . 15
Connolly v. Pension Ben. Guar. Corp.,
475 U.S. 211 (1986). . . . . . . . . . . . . . . . . 13, 14, 15
Degan v. Board of Trustees of Dallas Police & Fire
Pension Sys.,
2018 WL 4026373 (N.D. Tex. Mar. 14, 2018) . . 15
Home Building & Loan Assn. v. Blaisdell,
290 U.S. 398 (1934). . . . . . . . . . . . . . . . . . . . . . . . 9
Penn Central Transportation Co. v. New York,
438 U.S. 104 (1978). . . . . . . . . . . . . . . . 5, 7, 13, 15
Raceway Park, Inc. v. Ohio,
356 F.3d 677 (6th Cir. 2004). . . . . . . . . . . . . . . . 15
United States Trust Co. v. State of New Jersey,
431 U.S. 1 (1977). . . . . . . . . . . . . . . . . . . . . passim
Unity Real Estate Co. v. Hudson,
178 F.3d 649 (3d Cir. 1999) . . . . . . . . . . . . . . . . 15

iv
CONSTITUTION AND STATUTES
U.S. Const., Art. I, § 10, cl. 1 . . . . . . . . . . . . . . . . . 8, 9
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
R.I. Gen. Laws § 28-9.2-6. . . . . . . . . . . . . . . . . . . . . . 2

1
OPINIONS BELOW
The opinion of the Rhode Island Supreme Court is
reported at 208 A.3d 557, and re-printed in the
Petitioner’s Appendix at pages 1-69. The opinion of the
Rhode Island Superior Court is unreported; however, it
is printed in the Petitioner’s Appendix at pages 70-135.
JURISDICTION
The Jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).
STATEMENT
In this case, the trial court ruled in favor of the City
of Cranston in a lengthy opinion after trial and upheld
city ordinances that suspended cost-of-living increases
in light of the City’s fiscal emergency. In United States
Trust Co. v. State of New Jersey, this Court held that
such impairments do not offend the Contracts Clause
if they were reasonable and necessary for a legitimate,
important public purpose.1 Applying that established
standard, the trial court found that the City proved,
with credible evidence, that the impairment was
reasonable and necessary in this case. Petitioner seeks
to challenge the court’s finding, but it has identified no
dispositive legal question, let alone one that has
divided the courts.
Perhaps sensing its weakness on the Contracts
Clause question, Petitioner throws in a Takings Clause
argument. In pressing that argument, which was
carefully rejected by the courts below, Petitioner makes
1

431 U.S. 1 (1977).

2
no attempt to identify a conflict with other decisions or
to otherwise establish that the question satisfies the
criteria for this Court’s review. The courts below were
correct that a temporary suspension of future increases
under a contract is subject to analysis as a regulatory,
rather than a categorical, taking and that it easily
passes muster in the particular circumstances of this
case. The petition for a writ of certiorari should be
denied.
A. Background
For many years, the City of Cranston, Rhode Island
(the “City”) entered into agreements with its police
union providing that it would pay a pension to its
retiring members. And, most relevant to this case, the
agreements addressed periodic increases to member’s
pensions. These periodic increases were called COLAs,
short for “cost-of-living adjustments.”
Despite their name, the COLAs in the agreements
were not in any way dependent on actual increases in
the cost of living. Most of the agreements provided that
“for all [retiring employees] the pension cost-of-living
adjustments (COLAs) will be fixed at 3.0% per annum,
compounded … .” Pet. App. 74 n.4, id. at 75 n.6. Most
of these agreements did not specify how often the City
would increase the member’s pension by 3% per
annum, and none specified the duration of this
promise.2 But until 2013, the City applied COLAs to
pensions each year, and for the retiree’s lifetime.

2

State law provides that such contracts cannot exceed a term of
five years. See R.I. Gen. Laws § 28-9.2-6.

3
This retirement benefit imposed a significant
burden on the City’s taxpayers. From 1985 through
2013 the City raised its taxes at least 15 times. Pet.
App. 83. Other City services suffered. The trial court
in this matter found that “Cranston residents were
paying high taxes for extremely limited services.” Id.
The State recognized that the City’s high tax burden
qualified it as a “[d]istressed [c]ommunity.” Id.
In 2008 and thereafter, what was a heavy burden
became impossible due to the City’s “serious fiscal
crisis.” Pet. App. 27. Beginning in 2008 and 2009,
Rhode Island, like much of the United States, suffered
from the so-called Great Recession. “The Great
Recession had far reaching and devastating economic
and general social consequences that affected the entire
City.” Pet. App. 108. The City experienced high
unemployment and its property values—the primary
source of the City’s tax revenue—decreased by more
than $1 billion in just one year. Pet. App. 109.
Compounding these economic stressors were extreme
weather events that further burdened the City in
March 2010. Pet. App. 209.
In addition, a significant component of the City’s
budget was aid from the state of Rhode Island. But this
aid plummeted due to a simultaneous “state budgetary
crisis.” Pet. App. 78. In 2007, before the recession,
about twenty percent of the City’s revenue came from
state aid. By 2011, state aid had fallen about 75%, from
$22 million in 2007 to less than $6 million. Id.
Then, in 2011, the state legislature enacted the
“Rhode Island Retirement Security Act,” or “RIRSA,” to
promote sustainable municipal pension systems. Pet.

4
App. 81. RIRSA required cities and towns that
administered pension plans to promptly develop a path
towards fiscally stable plans within, generally, twenty
years. Id. at Pet. App. 4. If a city or town failed to
comply with RIRSA and did not present a reasonable
plan to restore the plan to fiscal health, it faced the loss
of all state aid for any purpose other than education.
Id.
The combination of the Great Recession, the decline
in state aid, and other factors “created an
unprecedented fiscal emergency neither created nor
anticipated by the City.” Pet. App. 112. The crisis
deepened when, in a vicious circle, Moody’s Investors
Service downgraded the City’s bonds and thereby
impaired its ability to finance its liabilities. Id.
In 2013, and as a last resort, the City enacted two
ordinances providing that 3% COLAs would not be
applied to police retirees’ pensions for ten years. Pet.
App. 118; see also Pet. App. 208-231; Pet. App. 232-242.
The members’ “base” pensions and the increases
effected by all previous COLAs were left untouched.
Most of those affected by the ordinances settled
their differences with the City or did not sue. In June
of 2013, the Cranston Police Retirees Action Committee
(“CPRAC”), an association purporting to comprise a
group of police retirees who had opted out of a
settlement with the City over the ordinances, filed its
complaint alleging, among other things, that the
ordinances violated the Contracts Clause and the
Takings Clause of the United States Constitution.

5
B. Procedure
After more than two years of litigation, on
November 2, 2015, the trial court granted the City
summary judgment on CPRAC’s Takings Clause claim.
See Pet. App. 195-206.
Petitioner had argued that the COLA suspension
should be analyzed as a categorical taking that would
per se require the payment of compensation. See Pet.
App. 37. The trial court disagreed and analyzed the
impairment as a regulatory taking per this Court’s
decision in Penn Central. Applying that framework, it
determined that the City was entitled to summary
judgment because there had been no compensable
regulatory taking effected by the ordinances. The
retirees maintained most of the values of their pensions
and the City had promulgated a negative restriction
rather than an affirmative exploitation. Pet. App. 202.
The trial court concluded that the case was analogous
to the Second Circuit’s decision in Buffalo Teachers
Fed’n. v. Tobe, and reasoned that “the economic impact
on the plaintiffs as well as the extent to which the
regulation interfered with distinct investment-based
expectations do not rise to the level” of an illegal
taking.3
The court held a six-day bench trial on CPRAC’s
remaining claims, including its Contracts Clause
claims. In its 53-page decision, the trial court explained
that to demonstrate a Contracts Clause violation,
CPRAC had to show that the ordinances substantially
3

Pet. App. 201 (citing Buffalo Teachers Fed’n. v. Tobe, 464 F.3d
362, 370-71 (2d Cir. 2006), cert denied, 550 U.S. 918 (2007).

6
impaired a contract. If it did so, the burden of
production would shift to the City to establish that the
ordinances were reasonable and necessary to fulfill a
significant and legitimate public purpose.
The trial court held that the ordinances
substantially impaired the contract and turned to the
fact-specific public purpose inquiry. Relying on this
Court’s U.S. Trust Co. decision, the trial court required
the City to prove, through sufficient credible evidence,
that it “did not (1) ‘consider impairing the … contracts
on par with other policy alternatives’ or (2) ‘impose a
drastic impairment when an evident and more
moderate course would serve its purpose equally well,’
nor (3) act unreasonably ‘in light of the surrounding
circumstances.’” Pet. App. 115.
The court found that the City met its burden
through the corroborated testimony of, among others,
an actuary who testified as an expert witness, the
City’s current mayor, Allan Fung, and the City’s
finance director. Pet. App. 121.
The court found that the City had employed a
number of measures to cut costs and increase revenues,
many of which are cited in the trial court’s decision.
Among other measures, the City implemented wage
freezes, laid off City employees, and increased health
care co-share requirements. Pet. App. 78-79. The
City—which already had one of the highest tax rates in
the state—raised taxes each year between 2009 and
2012. City residents paid more on houses that were
worth less. Pet. App. 117. The trial court found that
“[a]ny subsequent tax increases to deal with the crisis
were not feasible,” and “a tax increase would defy the

7
state[‘s statutory] property tax cap.” Pet. App. 83. And,
citing the Second Circuit, the trial court noted that
raising taxes while cutting City services will at some
point decrease the City’s revenues—residents are not
rooted to the ground. Id. The trial court determined
that the enactment of the ordinances was “genuinely a
last resort measure.” Pet. App. 118.
The Rhode Island Supreme Court unanimously
affirmed the judgment of the trial court in all respects.
The Supreme Court, like the trial court, sided with
Petitioner on the legal question of who had the burden
of proof and production on the reasonable/necessary
prong of the Contracts Clause analysis. Pet. App. 19.
But it specifically rejected Petitioner’s argument that
the trial court erred in the determination and
application of the burden of proof at trial. The Supreme
Court held that the trial court shifted the burden of
production to the City, and properly determined that
the City should prevail after “weigh[ing] the evidence
and ma[king] credibility determinations.” Pet. App. 22.
The Supreme Court also affirmed the trial court’s
decision on the Takings Clause issue. It agreed that the
suspension of increases to a member’s pension
payments should not be analyzed as a physical taking
nor as a physical invasion of property because it
applied temporarily and prospectively to contract
rights. The Supreme Court instead analyzed the
impairment under the framework created in Penn
Central Transportation Company v. City of New York,
and affirmed the trial court’s grant of summary
judgment in the City’s favor. Pet. App. 34-42. Within
the Penn Central framework, the court reasoned that

8
“the COLA suspension impacts only part of the total
pension benefits received; it does not take aware the
base pension payments or any other retirement
benefits.” Pet. App. 40. “[T]he government action was
focused on future benefits and did not affect any COLA
payments made prior to its enactment” and “was
motivated by a critical need to improve the health of
the City’s pension system.” Id. at 41.
The state Supreme Court issued its decision on
June 3, 2019. CPRAC filed its Petition for Writ of
Certiorari (the “Petition”) on August 30, 2019.
REASONS WHY THE PETITION SHOULD BE DENIED
I. The Contracts Clause question should not be
reviewed.
This case does not present any question about the
governing legal framework for Contracts Clause
questions. That burden-shifting framework, announced
by this Court in U.S. Trust Co., has been employed for
decades with minimal deviation by federal and state
courts. Rather than presenting a legal question about
that framework, Petitioner attacks the trial court’s
dispositive legal finding that the City proved at trial
that the impairment of its members’ contracts was
reasonable and necessary. Because the fact-bound
decision below does not conflict with the decision of any
other court, it does not warrant this Court’s review.
The Contracts Clause provides that “[n]o state
shall … pass any law … impairing the Obligation of

9
Contracts.”4 In its 1934 decision in Home Building &
Loan Assn. v. Blaisdell, this Court held that the
“prohibition” in the Contracts Clause “is not an
absolute one, and is not to be read with literal
exactness, like a mathematical formula.”5
In 1977 the Court addressed a state’s impairment of
a contract where its own “self-interest” as a contracting
party was at stake. See United States Trust Co. of N.Y.
v. New Jersey (“U.S. Trust Co.”).6 The Court stated the
general rule, that a state actor’s “impairment of
[contracts] may be constitutional if it is reasonable and
necessary to serve an important public purpose.” Id. at
25. But when a state actor substantially impairs a
contract to which it is a party, its “self-interest is at
stake,” and “complete deference to a legislative
assessment of reasonableness and necessity is not
appropriate … .” Id. at 25-26.
In U.S. Trust Co., this Court determined that the
state had acted for a legitimate, important public
purpose. Id. at 28. But because complete deference to
the legislative assessment of reasonableness and
necessity was not appropriate, it scrutinized the State’s
justification. The Court noted that “a State is not free
to impose a drastic impairment when an evident and
more moderate course would serve its purposes equally
well,” and that a state actor “is not completely free to
consider impairing the obligations of its own contracts
4

U.S. Const., Art. I, § 10, cl. 1.

5

290 U.S. 398, 428 (1934).

6

431 U.S. 1 (1977).

10
on a par with other policy alternatives.” Id. at 30. The
Court also examined whether the state acted
unreasonably “in light of the surrounding
circumstances.” Id. at 31.
The state courts here applied the correct standard
for review of a state actor’s “self-interested”
impairment of contractual relations. The courts
expressly cited and relied on this Court’s U.S. Trust Co.
decision and subsequent Circuit precedent that applied
this Court’s decisions (and which this Court declined to
review).7
In interpreting this framework, the Rhode Island
Supreme Court sided with Petitioner. It held that the
City, not Petitioner, carried the burden of production in
establishing that the impairment was reasonable and
necessary. Pet. App. 20. And it again adopted a
Petitioner-friendly interpretation of the deference due
to the Rhode Island legislature, adopting a “less
deference” standard. Pet. App. 21.8

7

Pet. App. 16 (citing United States Trust Co. of N.Y. v. New Jersey,
431 U.S. 1, 21 (1977)); id. at 25 (citing Buffalo Teachers Fed’n. v.
Tobe, 464 F.3d 362, 370-71 (2d Cir. 2006), cert denied, 550 U.S. 918
(2007); id. at 21 (citing Baltimore Teachers Union, Am. Fed’n of
Teachers Local 340, AFL-CIO v. Mayor & City Council of
Baltimore, 6 F.3d 1012, 1019 (4th Cir. 1993) cert denied, 510 U.S.
1141 (1994).
8

Petitioner notes that some courts have adopted a standard less
favorable to its position, putting the burden of production on the
plaintiff rather than shifting it to the defendant. Pet. 14. This case
does not present an opportunity to resolve any disagreement on
this point because Petitioner lost despite the courts putting the
burden on the City.

11
Rather than challenging the governing framework,
Petitioner complains about the trial court’s fact-bound
application of this framework. In particular, it argues
that the trial court’s finding that City witnesses
“testif[ied] credibly” about the necessity of the
challenged legislation was not enough, and that the
trial court should have required further external
corroborations for that testimony. Pet. 13. Petitioner
has identified no court that has micromanaged a factfinder’s determination in this way.
Petitioner argues that a trial court must “weigh
conflicting evidence,” instead of simply ruling for a
government entity that puts forward some credible
evidence for its decision. Pet. App. 15 (citation omitted).
But the trial court did exactly what Petitioner asks: the
trial court “weighed” conflicting evidence, “made
credibility determinations,” and found the City’s
evidence more persuasive. Pet. App. 22. The Rhode
Island Supreme Court found no error in the trial
court’s application of this Petitioner-friendly standard.
See id.
Petitioner’s other arguments run headlong into the
trial court’s factual findings. Petitioner argues that
“[t]here was no true financial emergency” requiring the
legislation. Pet. 19. But the trial court found to the
contrary, explaining that the “budgetary crises,
inherited deficits, unanticipated cuts in state aid, and
the 2010 natural disasters constituted an unexpected
fiscal emergency” at the relevant time. Pet. App. 80; see
Pet. App. 23. Similarly, Petitioner contends that “there
was no evidence that other measures were actually
tried.” Pet. 20. But the trial court found that “the City

12
presented sufficient credible evidence that it
adequately considered and tried other policy
alternatives.” Pet. App. 116-119. And it found that “a
more moderate course was not available.” Pet. App.
119. And again, Petitioner argues that the City’s action
was improper because it had “acted . . . to create the
very emergency conditions” it used to justify the
impairment. Pet. 23. But the trial court found that the
fiscal emergency was “neither created nor anticipated
by the City,” Pet. App. 112, but rather was caused by
several factors, many of them not within the City’s
control. Pet. App. 80; see Pet. App. 27.
Petitioner dwells on one factor that contributed to
the City’s fiscal crisis, i.e., that beginning nine years
before the Great Recession, the City “failed to fully pay
the Annual Required Contribution” to the members’
pension plan “as determined by its own actuaries … .”
Pet. 23. But Petitioner does not state the amount by
which the City missed the ARC, and has never
presented evidence that if the City had funded the full
ARC for eight or nine years before the Great Recession,
the City’s crisis would have been averted or its choices
could have been any different.
Petitioner would retry the case before this Court.
But it has identified no significant legal question that
satisfies the Court’s criteria for review. The state
courts stated the correct rule of law, and the Petitioner
has also failed to show an erroneous factual finding or
the misapplication of the rule of law. Accordingly, the
Petition should be denied.

13
II. The Regulatory Takings question should not
be reviewed.
Petitioner similarly seeks error correction of the
state courts’ application of this Court’s regulatory
takings jurisprudence to the City’s pension reform. It
does not identify any conflict between the decision
below and the decision of any other court. It simply
launches into a merits argument, pressing an
impossibly broad view of the Takings Clause that
would shackle governments from regulation that
“adjusts the benefits and burdens of economic life.” See
Connolly v. Pen. Ben. Guar. Corp., 475 U.S. 211, 225
(1986).
In fact, the state courts properly applied this
Court’s regulatory takings analysis as originally set
forth in the 1978 Penn Central Transportation Co. v.
New York decision.9
The state Supreme Court declined Petitioner’s
request to apply the per se takings analysis because
that analysis is only appropriate when the government
effects a categorical taking which occurs “when the
government physically takes possession of an interest
in property for some public purpose.” Pet. App. 38. It
affirmed the trial court’s application of the regulatory
takings analysis to the contract-rights question here
because the “City’s ordinances do not present the
classic taking in which a government directly
appropriates private property for its own use. …
Rather, the interference with the plaintiffs’ COLA

9

438 U.S. 104, 124 (1978).

14
benefits arises from a public program adjusting the
benefits and burdens of economic life to promote the
common good.” Pet. App. 39.
Petitioner asserts that the ordinances, “outright
suspending 10 years of earned benefits, should have
been clearly a physical taking, for which compensation
would be required per se.” Pet. 26. But the state courts’
application of the regulatory takings analysis to review
the ordinances was faithful to this Court’s 1986
decision in Connolly v. Pension Ben. Guar. Corp.10
In Connolly, the Court reviewed a Fifth Amendment
challenge to the Multiemployer Pension Plan
Amendments Act of 1980. Id. That Act required an
employer withdrawing from a multiemployer pension
plan to pay its proportionate share of the plan’s
unfunded vested benefits before withdrawing. Id. The
challenger argued that it “was protected by the terms
of its contract from any liability beyond the specified
contributions to which it had agreed.” Id. at 223.
The Connolly Court agreed that in some cases, the
taking of contractual rights may violate
constitutionally protectable property rights that
require just compensation. But it also recognized that,
in such cases, “we have eschewed the development of
any set formula for identifying a ‘taking’ forbidden by
the Fifth Amendment, and have relied instead on ad
hoc, factual inquiries into the circumstances of each
particular case.” Id. “To aid in this determination . . .
we have identified three factors which have ‘particular

10

475 U.S. 211 (1986).

15
significance’: (1) ‘the economic impact of the regulation
on the claimant’; (2) ‘the extent to which the regulation
has interfered with distinct investment-backed
expectations’; and (3) ‘the character of the
governmental action.’”11
Federal courts across the country have applied the
regulatory takings analysis to legislation which
impairs private parties’ contractual rights.12 And, more
specifically, federal courts have applied the regulatory
takings analysis to legislation impairing public
employees’ contractual rights.13
Petitioner asserts that this litigation is distinct from
Connolly because “[h]ere, the City is directly taking the
money already owed to retirees, and they are using
that money for other municipal purposes, essentially
putting money it owes back into its own pocket.” Pet.
27. But as the decisions below explained, the City’s
pension reform legislation does not “take” money from
the retirees, it temporarily interferes with the retirees’
right to future monies. The state Supreme Court held
11

Id. at 225 (quoting Penn Central, 438 U.S. at 124).

12

Raceway Park, Inc. v. Ohio, 356 F.3d 677, 684 (6th Cir. 2004);
Unity Real Estate Co. v. Hudson, 178 F.3d 649, 677 (3d Cir. 1999)
(“We decline to enter into the conceptual morass that would be
engendered by the plaintiffs’ total takings theory. . . Instead, the
size of the deprivation inflicted by a law must be evaluated in the
context of the other relevant facts.”); In re Chateaugay Corp., 53
F.3d 478, 493-94 (2d Cir. 1995).

13

See Buffalo Teachers Fed’n. v. Tobe, 464 F.3d 362, 374 (2d Cir.
2006); Degan v. Board of Trustees of Dallas Police & Fire Pension
Sys., 2018 WL 4026373, *7 (N.D. Tex. Mar. 14, 2018).

16
that “the City did not physically take back a payment
already made to retirees to appropriate the money for
its own use,” but rather temporarily impaired the
retirees’ contractual rights to future COLA increases.
Pet. App. 39.
Government regulation that interferes with
contractual rights is analyzed under the multi-factor
test set forth by this Court in U.S. Trust Co., supra. If
the Court treated every interference with contractual
rights as a per se taking, then this Court’s Contracts
Clause jurisprudence would be effectively moot. Where
Contracts Clause jurisprudence would require
contextual consideration of legislation, the Takings
Clause would immediately invalidate that same
legislation subject to the payment of just compensation.
Application of Takings Clause jurisprudence here
would prevent a state actor from ever impairing a
contract, even to ameliorate the most severe fiscal
emergencies. That result directly contradicts U.S.
Trust Co.
Lastly, to the extent that Petitioner takes issue with
the Rhode Island courts’ finding that the ten year
COLA suspension was a “temporary” reform (Pet. 2832), Petitioner is requesting that this Court engage in
fact-intensive error correction. The state Supreme
Court concluded that “[b]ecause the 2013 ordinances
apply only temporarily and prospectively to contract
rights, the City did not physically take back a payment
already made to retirees to appropriate the money for
its own use.” Pet. App. 39. The court affirmed the
superior court’s conclusion which was informed by six
days of trial testimony. Petitioner does not call into

17
question the legal authorities used but rather the
court’s application of those authorities to the
testimony. Therefore, for the reasons noted supra, the
Petition should not be granted.
CONCLUSION
Petitioner has failed to show that the Rhode Island
Supreme Court has “decided an important federal
question in a way that conflicts with the decision of
another State court of last resort or of a United States
court of appeals.”14 Petitioner has also failed to show
that the state Supreme Court “decided an important
question of federal law that has not been, but should
be, settled by this Court,” or in a way that “conflicts
with relevant decisions of this Court.”15 The Petition
should be denied.

14

Rule 10(b).

15

Rule 10(c).

18
Respectfully submitted,
WILLIAM M. DOLAN III
WILLIAM K. WRAY, JR.
Counsel of Record
NICHOLAS L. NYBO
ADLER POLLOCK & SHEEHAN P.C.
One Citizens Plaza, 8th Floor
Providence, Rhode Island 02903
(401) 274-7200
wdolan@apslaw.com
wwray@apslaw.com
nnybo@apslaw.com
Counsel for Respondent
NOVEMBER 2019

